                                         3 1 March 1997




                      -
    Memorandum


              To:      File




        Through:
                      Special Agent-in-Charge

          Subject:    Proactive Review                                       1q7°3001*
    During a review of SBIR abstracts, we.determined that two abstracts for grants
                                                                            -      to the
'                  1                , were similar in content. The two grants were NSF
               ,"                                                                       I1


    and U.S. A                                   -

    final reports for both grants, however, it appeared that there were enough differences
    in the research so as nor to be duplicative. Based on this determination, this case is
    closed.
